                              Office of the Inspector General

March 14, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General

Reliability of Diagnosis Codes Contained in the Social Security Administration’s Data
Bases (A-01-99-61001)


Attached is a copy of our final report. Our objective was to determine the impact on the
Social Security Administration’s operations when diagnosis codes on the Master
Beneficiary Record or Supplemental Security Record are missing, invalid or for
unestablished diagnoses.

Please comment on corrective action taken or planned on each recommendation within 60
days from the date of this memorandum. If you wish to discuss the final report, please call
me or have your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                                 James G. Huse, Jr.

Attachment
          OFFICE OF

   THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




    RELIABILITY OF DIAGNOSIS
    CODES CONTAINED IN THE
        SOCIAL SECURITY
  ADMINISTRATION’S DATA BASES

  March 2000     A-01-99-61001




  AUDIT REPORT

                  EXECUTIVE SUMMARY


OBJECTIVE

Our objective was to determine the impact on the Social Security Administration’s (SSA)
operations when diagnosis (DIG) codes on the Master Beneficiary Record (MBR) or
Supplemental Security Record (SSR) are missing, invalid or for unestablished diagnoses.

BACKGROUND

The DIG code is an integral part of each disabled individual’s permanent record. This
code on the MBR and SSR should refer to the basic medical condition that rendered the
individual disabled. SSA uses the DIG code, along with other fields, for a variety of
purposes, such as determining what type of continuing disability review (CDR) will be
performed. If the original impairment were electronically available, SSA could better
assess the likelihood of medical improvement in profiling the case and thereby determine
the appropriate method of review.

The DIG code is also used by SSA’s managers to identify specific populations that may
have to be redetermined as a result of new legislation. For instance, due to passage of the
Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public Law 104-
193), the prior medical determinations of children had to be reviewed if those children had
disabilities specified in the legislation. SSA identified the individuals whose cases
needed to be reviewed, in part, through use of the DIG code.

We obtained from SSA an extract that contained the primary DIG codes for
11,658,598 Disability Insurance and Supplemental Security Income (SSI) disabled
beneficiaries or recipients who were eligible for payments as of September 1998.
Through review of SSA’s Program Operations Manual System (POMS) and the United
States Department of Health and Human Services “International Classification of
Diseases,” we identified DIG codes of 0001, 001X, 2480, 2490, 6490, 799X, and 9999 as
being invalid or with an unestablished diagnosis. Invalid DIG codes are those codes that
do not have a medical meaning and are not listed in POMS.

RESULTS OF REVIEW

SSA’s procedures do not ensure valid and specific DIG codes are recorded to the MBR or
SSR. We extracted 1,492,475 records where individuals who were eligible for payment
had DIG codes on their MBRs or SSRs that were missing, invalid or for unestablished
diagnoses. We randomly selected a sample of 150 of these records to verify that the
individuals had received benefit payments and to determine the basis for the disability


                                             i
decisions. We found 132 of the 150 sampled individuals had received benefit payments
while their MBRs or SSRs had missing, invalid or unestablished diagnoses on their MBRs
or SSRs. Projecting the results of our sample cases to the population, we estimate
1.31 million MBR or SSR records did not contain DIG codes representing the medical
condition related to the individuals’ disabilities. We also reviewed SSA's National
Disability Determination Services System (NDDSS) to determine if this disability data
base contained better DIG codes for these 132 records and found that the NDDSS also
lacked better DIG information for 65 of the 132 records. These incorrect DIG codes affect
SSA’s ability to properly profile beneficiaries or recipients for CDRs and preclude SSA
from identifying cases mandated for redeterminations. Additionally, if SSA’s data bases
were corrected with DIG codes that specifically represent the individuals’ disabilities, more
accurate disability statistics could be accumulated and disseminated.

For 124 of the 150 cases reviewed, we found evidence of DIG codes that specifically
represent the individuals’ disabilities. We determined specific DIG codes for these
beneficiaries or recipients by reviewing documentation found in these individuals’ medical
folders, or by locating information on other SSA data bases. In 14 of the 150 cases, we
were unable to determine specific DIG codes because SSA could not locate the case
folders (8 cases) or the case folders lacked medical evidence (6 cases). In 12 cases, the
claimants never received benefit payments, so it was not necessary for SSA to establish
DIG codes on the MBR or SSR.

Having DIG codes that do not represent specific disabilities on SSA’s records affects
SSA’s ability to identify specific disabilities for review. For example, we reviewed 50 of
the 87,947 childhood cases in our extract to determine whether these cases were
redetermined as required by Public Law (P.L.) 104-193. We determined that required
reviews were not performed in 5 of the 50 cases. According to P.L. 104-193, these five
cases should have been selected for redeterminations because their diagnoses were
based on maladaptive behavior or individualized functional assessments. We have
determined that missing or invalid DIG codes or DIG codes with unestablished diagnoses
contributed to SSA’s not selecting these cases for review. In the five cases where reviews
were not performed, individuals were paid $49,494 in SSI benefits between September
1997 and June 1999. Projecting these results to the population, we estimate that at least
3,539 recipients should have had redeterminations performed under P.L. 104-193. By
these redeterminations not being performed, we estimate that at least $8.97 million in SSI
payments have been paid incorrectly.

RECOMMENDATIONS

We recommend that SSA:

•	 Update the MBR and/or SSR with valid, specific DIG codes for all disabled
   beneficiaries and recipients.




                                              ii
•	 Implement an electronic edit check that requires a valid, specific DIG code be input
   when new records are opened on the MBR and/or SSR for disabled individuals.

•	 Publish a policy memorandum emphasizing the importance of having valid, specific
   DIG codes on the MBR and/or SSR as well as the NDDSS. The memorandum should
   also explain what special circumstances allow for the use of DIG code 2480.

•	 Periodically monitor whether Disability Determination Services offices are limiting the
   use of DIG code 2480 to those special circumstances where it is appropriate.

•	 Ensure that when second or subsequent SSR records are opened, the DIG code on
   previous SSR records is carried forward or another DIG code that represents the
   individual’s disabling condition is placed on all newly opened SSR records.

•	 For all childhood cases included in our extract, determine whether
   P.L. 104-193 medical redeterminations should have been conducted and conduct
   those redeterminations that have not been performed.

AGENCY COMMENTS

In response to our draft report, SSA agreed to implement corrective actions to address the
conditions found during our review and satisfy five of our six recommendations. (See
Appendix B for the full text of SSA's comments to our draft report).

With regard to our fifth recommendation, SSA did not agree to take further action. SSA
stated that the recommended edit was implemented in July 1997. Further, even though FO
staff continue to have the ability to manually create these records, procedures are in place
to ensure that appropriate codes are carried forward or established when the manual
process is used.

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We agree that SSA’s proposed corrective actions should address the conditions found
during our review, and fulfill the intent of five of our six recommendations. To ensure that
SSA’s actions have fully corrected the conditions found, we will follow-up on these issues
during future audits.

With regard to our fifth recommendation, SSA’s response does not reflect that this
condition continued to occur after July 1997. In conducting our review, we found cases
processed after July 1997 where the DIG codes on the closed SSRs were not carried
forward to the new SSRs. As a result, we continue to believe that further corrective action
is necessary to ensure that DIG codes are carried forward when new SSRs are created.




                                              iii
                             TABLE OF CONTENTS


                                                                                                                              Page

EXECUTIVE SUMMARY....................................................................................................i

INTRODUCTION ................................................................................................................1

RESULTS OF REVIEW.....................................................................................................5

        HOW INVALID DIG CODES WERE PLACED ON THE MASTER
        BENEFICIARY RECORD OR SUPPLEMENTAL SECURITY
        RECORD ....................................................................................................................6

        REVIEW OF CASES TO ASSESS COMPLIANCE WITH
        PUBLIC LAW 104-193 .............................................................................................7

RECOMMENDATIONS......................................................................................................9

APPENDICES
APPENDIX A – Sampling Methodology and Results

APPENDIX B – Agency Comments

APPENDIX C – Major Contributors to this Report

APPENDIX D – SSA Organizational Chart

                                 INTRODUCTION


OBJECTIVE

Our objective was to determine the impact on the Social Security Administration’s (SSA)
operations when diagnosis (DIG) codes on the Master Beneficiary Record (MBR) or
Supplemental Security Record (SSR) are missing, invalid or for unestablished diagnoses.

BACKGROUND

The Disability Insurance (DI) program was established in 1956 under title II of the Social
Security Act (Act). It was designed to provide benefits to disabled wage earners and their
families. In 1972, Congress enacted the Supplemental Security Income (SSI) program
under title XVI of the Act. The SSI program provides a minimal level of income to
financially needy individuals who are aged, blind or disabled.

The DIG code is an integral part of each disabled individual’s permanent record. This
code on the MBR or SSR should refer to the basic medical condition that rendered the
individual disabled. The disability determination, including selection of the DIG code, is
made by Disability Determination Services (DDS) medical examiners based upon
information in an applicant’s case folder. At the end of each review, the DDS office
prepares a Disability Determination and Transmittal form that includes a decision as to
whether the individual is disabled and the individual's diagnosis. An electronic version of
this form is transmitted to the National Disability Determination Services System (NDDSS)
maintained by SSA. The NDDSS electronically updates the MBR and SSR with the DDS
determination information.

SSA uses the DIG code along with other fields for a variety of purposes, such as
determining what type of continuing disability review (CDR) will be performed.1 For
example, a DIG code related to a particular body system may be more likely to be
scheduled for a full medical CDR than a mailer CDR. SSA’s Program Operations Manual


1
  The purpose of a CDR is to determine whether a disabled beneficiary or recipient is still medically eligible
to receive benefits. CDRs are conducted through one of two methods: full medical reviews or CDR mailers.
Full medical reviews are primarily conducted by DDS offices who review an individual’s medical evidence,
develop medical evidence if unavailable or insufficient, and render a determination as to whether the
individual is still disabled. CDR mailers are questionnaires sent to disabled individuals asking whether: (1)
they have performed any work; (2) their medical condition has changed; and (3) they are interested in
receiving vocational rehabilitation services. If the answers to the questions indicate the individual’s condition
may have improved, the case is referred to a DDS office for a full medical CDR to determine whether the
individual is still disabled.



                                                        1
System (POMS) DI 28001.001 states that for a DI beneficiary or adult SSI recipient,
disability will cease only when there is medical improvement in the individual’s
impairment(s) related to the ability to work. If the original impairment’s diagnosis code
were electronically available, SSA could better assess the likelihood of medical
improvement in profiling the case and thereby determine the appropriate method for a
CDR.

The DIG code is also used by SSA managers to identify specific populations that may
have to be medically redetermined as a result of new legislation. For instance, due to
passage of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996
(Public Law 104-193), the prior medical determination of certain children had to be
reviewed.2 SSA identified the individuals whose cases needed to be reviewed, in part,
through use of the DIG code.

SSA management recognizes the need for accurate diagnosis decisions and reporting.
POMS DI 28085.115 states, “Identifying the nature and extent of impairment is a vital and
important part of the disability process, not only as to the substantive decision, but also for
disability data collection and future processing purposes. Therefore, it is necessary for the
reviewing physician/examiner team to accurately determine before coding by the lists the
correct nature of the principal impairment(s) upon which the favorable or unfavorable
decision is based.”

We identified DIG codes on current MBRs and SSRs which are invalid or with
unestablished diagnoses (see Table 1). Invalid DIG codes are those having no medical
meaning and are not listed in POMS DI 26510.015. The invalid DIG codes we identified
are 0001, 001X, 2490, 799X, 9999 and blank, which we found on 1,298,569 MBRs and
SSRs. SSA staff told us that the Office of Systems Requirements updated approximately
500,000 blank fields on the SSR during the summer of 1998, just prior to our data
extraction for this review. Our extract included 190,444 MBR and SSR records with DIG
code 2480.3 SSA staff informed us they believe DIG code 2480 is being overused.




2
  Public Law 104-193 (enacted August 22, 1996) required SSA to redetermine the medical eligibility of any

individual under age 18 whose claim was allowed because of an individualized functional assessment or

consideration of maladaptive behavior in the domain of personal/behavioral function.

3
  While code 2480 is a valid DIG code listed in POMS, this code provides only a general description of the

disability condition and should be used rarely.




                                                     2
           Table 1: MBRs and SSRs with Invalid or Unestablished Diagnosis Codes

    DIG Codes                                                               Number of
    Included in                       Definition in POMS                    Records in
      Review                                                                 Extract
           Blank         Not Listed                                              779,862
           0001          Not Listed                                              252,820
           001X 4        Not Listed                                              243,895
           2480          Diagnosis Established – No Predetermined List           190,444
                         Code of Medical Nature Applicable
           2490          Not Listed                                                 2,206
           6490          None Established – Medical Evidence in File                3,462
                         But Insufficient to Establish Diagnosis
           799X 4        Not Listed                                                1,915
           9999          Not Listed                                               17,871

                                                                   Total      1,492,475



SCOPE AND METHODOLOGY

To accomplish our objective, we:

      •     Reviewed applicable Federal laws, regulations, and program guidelines.

      •	    Obtained from SSA an extract containing the DIG codes for 11,658,598 DI and SSI
            disabled individuals eligible for payments.

      •	    Reviewed POMS DI 26510.015 “Primary and Secondary Diagnosis, Body System
            Code and Impairment Code” and the United States Department of Health and
            Human Services “International Classification of Diseases” to determine which DIG
            codes were invalid or for unestablished diagnoses.

      •	    Identified 1,492,475 records from our initial extract with DIG codes that were
            missing, invalid or for unestablished diagnoses.

      •	 Randomly sampled and reviewed 50 cases from 87,947 SSR records where the
         recipients had dates of birth after 1980. These 87,947 records were disabled SSI
         children with primary DIG codes of 0001, 001X, 2480, 2490, 6490, 799X, 9999 or
         blank. (See Appendix A for details of our sampling methodology.)


4
    X represents the numbers 0, 3, 8 or 9.



                                                  3
   •	 Randomly sampled and reviewed 50 cases from 150,645 records where DI and/or
      SSI disabled adults had primary DIG codes of 2480, 2490, or 6490.

   •	 Randomly sampled and reviewed 50 cases from 1,253,883 records where DI
      and/or SSI disabled adults had primary DIG codes of 0001, 001X, 799X, 9999 or
      blank.

   •   Projected the results of our sample to the population.

   •	 Interviewed SSA disability specialists to obtain an understanding of the
      appropriateness of various DIG codes and to determine how DIG codes would
      impact the profiling of medical redeterminations.

   •	 Obtained case folders from field office, Program Service Center, Office of Hearings
      and Appeals (OHA) and Wilkes-Barre Folder Service Center personnel.

   •	 Reviewed disability records in the NDDSS to determine whether the NDDSS
      contained better DIG codes for the sample cases with missing, invalid or
      unestablished diagnoses on the MBR and/or SSR.

   •	 Discussed our findings with SSA staff to confirm that the cases we identified should
      have been reviewed under Public Law (P.L.) 104-193.

We conducted our audit between December 1998 and November 1999 in
Boston, Massachusetts. We conducted our review in accordance with generally accepted
government auditing standards.




                                             4
                          RESULTS OF REVIEW


SSA’s procedures do not ensure valid and specific DIG codes are recorded to the MBR or
SSR. We extracted 1,492,475 records where individuals who were eligible for payment
had DIG codes on their MBRs or SSRs that were missing, invalid or for unestablished
diagnoses. We randomly selected a sample of 150 of these records to verify that the
individuals had received benefit payments and to determine the basis for the disability
decisions. We found 132 of the 150 sampled records had received benefit payments
while the DIG codes on their MBRs or SSRs were missing, invalid or for unestablished
diagnoses.5 Projecting the results of our sample cases to the population, we estimate
1.31 million MBR or SSR records did not contain DIG codes representing the medical
condition related to the individuals’ disabilities. We also reviewed the NDDSS to
determine if this disability data base had better DIG codes for these 132 sample records
and found the NDDSS also lacked better DIG code information for 65 of the 132 records.
These incorrect DIG codes affect SSA’s ability to properly profile beneficiaries or
recipients for CDRs and preclude SSA from identifying cases mandated for
redeterminations. Additionally, if the NDDSS records were corrected with DIG codes that
specifically represent the individuals’ disabilities, more accurate disability statistics could
be accumulated and disseminated.

                                                                For 124 of the 150 cases
      Figure 1: Unestablished/Invalid DIG                       reviewed, we found evidence of
                Sample Results                                  DIG codes that specifically
                                                                represented the individuals’
                                                                disabilities. We determined
                                                                specific DIG codes for these
                                             Valid DIGs
                                                                beneficiaries or recipients by
        Valid DIGs Were
            Available
                                             Unavailable        reviewing documentation found
             124
                                                 14             in each individual’s medical
                                             Never in           folder, or by locating information
                                            Current Pay
                                                12
                                                                on other SSA data bases. In 14
                                                                of the 150 cases, we were
                                                                unable to determine specific DIG
                                                                codes because SSA could not
                                                                locate the case folders (8 cases)
                                                                or the case



5
  The remaining 18 records represent 12 records where SSA did not make a payment and 6 records where
the DIG code was 2480 and we could not determine whether a better diagnosis was available due to
insufficient medical evidence.


                                                     5
folders lacked medical evidence (6 cases). In 12 cases, the claimants never received
benefit payments, so it was not necessary for SSA to establish DIG codes on the MBR or
SSR (see Figure 1).

Having DIG codes that do not represent specific disabilities on SSA’s records affects
SSA’s ability to identify specific disabilities for review. For example, we reviewed 50 of
the 87,947 childhood cases in our extract to determine whether these cases were
redetermined as required by P.L. 104-193. We determined that required reviews were not
performed in 5 of the 50 cases. According to P.L. 104-193, these five cases should have
been selected for redeterminations because their diagnoses were based on maladaptive
behavior or individualized functional assessments (IFA). We have determined that missing
or invalid DIG codes or DIG codes for unestablished diagnoses contributed to SSA’s not
selecting these cases for review. In the five cases where reviews were not performed,
individuals were paid $49,494 in SSI benefits between September 1997 and June 1999.
Projecting these results to the population, we estimate that at least 3,539 recipients should
have had redeterminations performed under P.L. 104-193. By these redeterminations not
being performed, we estimate that at least $8.97 million in SSI payments have been paid
incorrectly. 6

How Invalid DIG Codes Were Placed on the MBR or SSR

We were unable to determine how invalid DIG codes were placed on the records in 9 of the
124 cases in which we identified DIG codes that specifically represent the individuals’
disabilities. In 115 of these 124 cases, we were able to determine 4 ways in which invalid
DIG codes were placed on the records.

•	 In 63 of the 115 cases, the DIG codes on the forms SSA used to document disability
   determinations 7 translated to the diagnosis “Diagnosis Established—No
   Predetermined List Code of Medical Nature Applicable” (DIG code 2480).8 Since the
   DIG codes on these forms automatically update the MBR and SSR, these 63 cases
   had the DIG code 2480 placed on their electronic records. In each of these cases,
   however, the diagnosis wording and/or the medical listing numbers on the forms
   translated into DIG codes that specifically represent the individuals’ disabilities. For
   example, an individual’s disability determination form contained medical diagnosis
   wording “Affective Disorders,” and also contained a medical listing number showing the
   disability related to Affective Disorders (DIG code 2960). However, the DIG code on

6
  We adjusted our projection by SSA’s P.L. 104-193 review cessation rate to reflect that not all cases

reviewed would result in cessation of benefits.

7
  SSA uses several forms to document DDS disability decisions. The Disability Determination and

Transmittal form (SSA-831) is used for initial disability determinations. The Cessation or Continuance of

Disability or Blindness Determination and Transmittal form is used for SSI redeterminations (SSA-832) and

DI redeterminations (SSA-833).

8
  As described in the Completion of Item 16 A and 16 B (Primary and Secondary Diagnosis, Body System

Code and Impairment Code) POMS DI 26510.015 the “Diagnosis Established—No Predetermined List Code

of Medical Nature Applicable” is represented by the DIG code 2480.



                                                    6
    this individual’s disability determination form and MBR was 2480. In our opinion, the
    DIG code should have been 2960 which is the DIG code for Affective Disorders, and
    specifically represents this individual’s disability.

•	 In 16 of the 115 cases, SSA staff at the FO or PSC entered OHA decisions into the
   MBR and SSR with an invalid DIG code of 0010, so that beneficiaries and/or recipients
   could collect DI and/or SSI benefits while their claims were being processed. When the
   processing of the claim was complete, however, SSA staff never went back to put a
   valid, specific DIG code on the MBR and/or SSR, even though specific impairment
   information was recorded in the OHA decisions and available in the case folders. For
   example, an individual's case folder contained an “OHA Psychiatric Review Technique
   Form” which showed the individual’s disability is based upon the medical listing number
   code for “Organic Mental Disorders” (DIG code 2940). However, the DIG code on this
   individual’s SSR is 0010, which is not a valid DIG code. In addition, OHA staff were not
   always providing a valid DIG code with the decision paperwork. OHA has recently
   issued guidance to its employees mandating valid DIG codes on all decided cases.9
   However, OHA staff told us that they do not have access to the MBR or SSR. As a
   result, FO and PSC staff will still need to update SSA’s data bases with a valid DIG
   code once they receive the OHA decision.

•	 In 13 of the 115 cases, new SSRs were opened, but valid DIG codes were not placed
   on the new SSRs. In 11 of these 13 cases, valid DIG codes on the previous records
   were not carried forward to the newly opened SSRs. For example, an individual’s
   current SSR has an invalid DIG code of 0001, while his prior SSR had a valid DIG code
   of 2950 (which signifies Schizophrenia). In 2 of the 13 cases, previous SSRs did not
   have DIG codes and invalid DIG codes were placed on the newly opened SSRs.

•	 In 23 of the 115 cases, the individuals first became eligible for benefits prior to 1982,
   when the DIG code field was not part of the electronic record. For these records, valid
   DIG codes were never added to the MBR and/or SSR. For example, an individual has
   been receiving DI benefits since 1962. We found a disability determination form dated
   March 26, 1968 in this individual’s case folder which indicates the individual’s disability
   was mental retardation. However, the DIG code field on this disabled individual’s MBR
   is blank.

Review of Cases to Assess Compliance with P.L. 104-193

As described earlier in this report, we stratified our sample population to segregate
childhood recipients from adult recipients. We stratified our population to determine if


9
 On December 4, 1998, OHA issued a memorandum instructing OHA personnel to designate a four-digit
DIG code for a claimant’s primary and secondary impairments in all decided cases. Although this process
had been in place for SSI childhood cases, the memorandum stated that these same requirements "…are
now extended to all disability decisions and are mandatory for all adjudicators."


                                                   7
required redeterminations under P.L. 104-193 were performed for the childhood
recipients. For the 50 cases we reviewed, we determined that:

•    In 40 cases, P.L. 104-193 redeterminations did not need to be performed;

•	 In 3 cases, redeterminations were performed and individuals were determined to still
   be disabled;

•	 In 1 case, a redetermination was performed and the disability was determined to have
   ceased;

•	 In 1 case, SSA could not locate the case folder and we were unable to determine
   whether a redetermination needed to be performed; and

•    In 5 cases, redeterminations required due to passage of P.L. 104-193 did not occur.

The individuals in the 5 cases cited above were paid $49,494 in SSI benefits during the
period September 1997 to June 1999.10

•	 In 2 of the 5 cases, the allowances were based upon IFAs. For example, one case was
   adjudicated August 11, 1992 and the medical diagnosis wording on the disability
   determination form states, “Severe, multiple developmental delay” and was coded as
   DIG code 2480. The regulation basis code on the disability determination form
   indicates an allowance based upon IFA. We reviewed the case folder, SSR and the
   Continuing Disability Review Control File and determined that a P.L. 104-193
   redetermination has not been completed on this case.

•	 In 3 of the 5 cases, we have determined the DIG codes that should have been on the
   records are DIG codes related to maladaptive behavior.11 For example, one case was
   adjudicated April 4, 1991 and the medical diagnosis wording on the disability
   determination form stated, “Attention Deficit Hyperactivity Disorder” and also contained
   a medical listing number showing the disability related to Attention Deficit Hyperactivity
   Disorder. The diagnosis wording and medical listing number both agree with DIG code
   3140. However, the SSR was coded with DIG code 2480 rather than 3140.12

10
   Three of these cases were later selected for childhood CDRs as part of SSA's commitment to conduct

CDRs on disabled children every 3 years. Two of these CDRs led to cessations and one led to a

continuance. This information is reflected in our calculations.

11
   P.L. 104-193, required SSA to modify the medical criteria for evaluation of mental and emotional disorders

by deleting references to maladaptive behavior in the domain of the personal/behavioral function. It also

required SSA to redetermine the eligibility of any individual under age 18 whose eligibility for benefits may

have been affected by this legislative change. In an emergency teletype regarding P.L. 104-193, SSA states

that maladaptive behavior was likely to be involved in decisions that had DIG codes: 3010 - Personality

Disorder; 3120 - Conduct Disorder; 3138 - Oppositional/Defiant disorder; 3140 - Attention Deficit

Hyperactivity Disorder.

12
   All five childhood cases cited in this section had NDDSS records containing DIG code 2480.



                                                      8
                       RECOMMENDATIONS


We recommend that SSA:

1.	 Update the MBR and/or SSR with valid, specific DIG codes for all disabled
    beneficiaries and recipients.

2.	 Implement an electronic edit check that requires a valid, specific DIG code be
    input when new records are opened on the MBR and/or SSR for disabled
    individuals.

3.	 Publish a policy memorandum emphasizing the importance of having valid, specific
    DIG codes on the MBR and/or SSR as well as the NDDSS. The memorandum should
    also explain what special circumstances allow for the use of DIG code 2480.

4.	 Periodically monitor whether DDS offices are limiting the use of DIG code 2480 to
    those special circumstances where it is appropriate.

5.	 Ensure that when second or subsequent SSR records are opened, the DIG code on
    previous SSR records is carried forward or another DIG code that represents the
    individual’s disabling condition is placed on all newly opened SSR records.

6.	 For all childhood cases included in our extract, determine whether P.L. 104-193
    medical redeterminations should have been conducted and conduct those
    redeterminations that have not been performed.

AGENCY COMMENTS

In response to our draft report, SSA agreed to implement corrective actions to address the
conditions found during our review and satisfy five of our six recommendations:

�	 For our first recommendation, SSA agreed to correct most of the DIG codes as these
   cases come up for subsequent actions, such as CDRs. This strategy may not correct
   all cases, but will apply to all non-permanent impairment cases within a 3-year period
   and will be cost effective to implement.

�	 With regard to our second recommendation, SSA agreed to improve coding accuracy
   by ensuring that DDS personnel enter the correct DIG code into the NDDSS and by
   monitoring the degree to which coding problems continue.



                                             9
�	 SSA agreed with our third recommendation and plans to issue a DDS Administrator’s
   Letter and Regional Commissioner’s Memorandum by April 30, 2000 to provide
   additional guidance on the importance of entering valid and specific DIG codes into the
   NDDSS.

�	 For our fourth recommendation, SSA agreed to confirm whether a specific problem
   exists with the use of DIG code 2480 by conducting a one-time review of the usage rate
   of this DIG code for DDS allowances after the DDS Administrator’s Letter and
   Regional Commissioner’s Memorandum are issued.

�	 With regard to our fifth recommendation, SSA did not agree to take further action. SSA
   stated that the recommended edit was implemented in July 1997. Further, even though
   FO staff continue to have the ability to manually create these records, procedures are in
   place to ensure that appropriate codes are carried forward or established when the
   manual process is used.

�	 For our sixth recommendation, SSA responded that it recognized from the outset that
   some childhood cases that met the disability redetermination criteria provisions of P.L.
   104-193 would be inadvertently excluded because of imprecise coding. Therefore,
   SSA has instructed adjudicators, at the time a CDR or other disability review is
   initiated, to first check to see if the case meets the childhood disability determination
   requirements. Adjudicators are further instructed to conduct a redetermination on any
   case identified as being subject to the provisions of P.L. 104-193.

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We agree that SSA’s proposed corrective actions should address the conditions found
during our review, and fulfill the intent of our recommendations, with the exception of our
fifth recommendation. With regard to our fifth recommendation, SSA’s response does not
reflect that this condition continued to occur after July 1997. In conducting our review, we
found cases processed after July 1997 where the DIG codes on the closed SSRs were not
carried forward to the new SSRs. Only one of these cases was processed through the
Modernized Supplemental Security Income Claims System (MSSICS). However, since the
original claim for this case pre-dated MSSICS implementation, SSA’s edit did not apply to
this case. As a result, all of the cases in our review with new SSRs opened after July 1997
were processed manually and SSA’s current procedures permitted the DIG codes to be
omitted from the new SSRs. As a result, we continue to believe that SSA must take action
to ensure that manual procedures for transferring DIG codes to new SSRs are re-enforced
with SSA’s staff.




                                             10
APPENDICES

                                                                           APPENDIX A



    SAMPLING METHODOLOGY AND RESULTS


From the Social Security Administration (SSA), we obtained extracts from the Master
Beneficiary Record (MBR) and the Supplemental Security Record (SSR) of all disabled
individuals eligible for payments. Our analysis of the diagnosis (DIG) codes found certain
codes being used were invalid or were for unestablished diagnoses. The MBR extract
contained 5.37 million records and the SSR extract contained 6.29 million records as of
September 1998. Through review of SSA’s Program Operations Manual System and the
United States Department of Health and Human Services “International Classification of
Diseases,” we identified 441,712 beneficiaries and 1,050,763 recipients eligible for
payments who had DIG codes of 0001, 001X, 2480, 2490, 6490, 799X, 9999 or blank.
We combined these two extracts and stratified them for sampling purposes.

•	 The first stratum consisted of 87,947 cases with a primary DIG code of 0001, 001X,
   2480, 2490, 6490, 799X, 9999 and blank which had a date of birth after 1980. We
   stratified children separately due to the potential impact of Public Law (P.L.) 104-193
   on childhood disabilities.

•	 The second stratum consisted of 150,645 cases with a primary DIG code of 2480,
   2490, or 6490 for disabled adult beneficiaries or recipients.

•	 The third stratum consisted of 1,253,883 cases with a primary DIG code of 0001,
   001X, 799X, 9999 or blank for disabled adult beneficiaries or recipients.

Evidence Used to Determine DIG Codes that Specifically
Represent the Individuals’ Disabilities

We determined DIG codes that specifically represent the individuals’ disabilities for 124 of
the 150 cases reviewed, using documentation found in these individuals’ medical folders
and SSA’s data bases. We used disability determination forms, Office of Hearings and
Appeals (OHA) decisions and other medical documentation prepared by the Disability
Determination Services (DDS) to determine the DIG codes that specifically represent
these individuals’ disabilities. Additionally, for Supplemental Security Income (SSI) cases
with more than one SSR record, we accepted valid DIG codes that were on older SSR
records as the best evidence available. Furthermore, for concurrent1 individuals, we
accepted valid DIG codes from the other title’s record (see Figure A-1). Specifically, for 67
of the 124 cases, we used disability determination forms to determine specific DIG codes.
For 20 of the 124 cases, we used evidence from OHA contained in the case folders to

1
    Individuals receiving both Disability Insurance and SSI benefits.

                                                        A-1
determine specific DIG codes. For 20 of the 124 cases, we used information on the
concurrent individuals’ other records or prior SSR records to locate valid DIG codes.

                                                           For 17 of the 124 cases, we
     Figure A-1: 	 Sources of Evidence                     determined the specific DIG
                    Used to Select Primary DIG             codes by various other means.
                                                           In four cases, disability
                                                           determination forms with DIG
                                    OHA                    codes of 2480 were in the
                                  Decisions                case folders; however, using
                                     20                    other documents2 we were
         Disability                                        able to identify more specific
                                       Concurrent or
          Decision
                                        Previous SSR
                                                           DIG codes. In three cases,
           Forms
                                             20
                                                           disability determination forms
             67
                                                           and OHA decisions were
                                                           absent, and we used other
                                    Other
                                                           documents in the case folders
                                     17
                                                           to select specific DIG codes.
                                                           In two cases, we adopted the
                                                           secondary DIG codes because
the primary DIG codes were missing, invalid or unspecific and not supported by
documentation in the case folders. In these cases, the secondary DIG code was supported
by the medical evidence contained in the case folder or was a DIG code that was for a
more specific diagnosis than the primary DIG code. In eight cases, as a result of recent
continuing disability reviews , SSA had added specific DIG codes to the records which
were supported by evidence in the case folders.

           Overall Sample Results and Attribute Projections
          Stratum Name                      Strata 1      Strata 2         Strata 3           Total
Population Size                             87,947        150,645         1,253,883        1,492,475
Sample Size                                      50            50                 50             150
Sample Results – Individuals Paid                43            45                 44             132
Benefits with Missing, Invalid, or
Unestablished DIG Codes
Projection – Individuals Paid                75,634       135,581         1,103,417        1,314,632
Benefits with Missing, Invalid, or
Unestablished DIG Codes
Projection Lower Limit                                                                     1,218,035
Projection Upper Limit                                                                     1,411,229
Note: All projections were calculated at the 90-percent confidence level.




2
 These documents included, a SSA form 454 “Report of Continuing Disability Review,” a DDS Disability
Determination Evaluation Report and a DDS Case Data Worksheet.

                                                  A-2
For those cases in which SSA performed P.L. 104-193 redeterminations, disability has
been determined to continue in 62 percent of the cases and disability has been
determined to cease in 38 percent of the cases. The 38 percent cessation rate is applied
to our estimate in the following table to recognize that not all of these cases would have
been ceased if redeterminations had been performed. To be conservative, we applied this
percentage to the lower limit of our estimate.

                         Strata 1 Sample Results for
                        Compliance with P.L. 104-193
Population Size                                                                  87,947
Sample Size                                                                          50
Attribute Projections
Sample Results – Individuals not Redetermined as Required                             5
Projection – Individuals not Redetermined as Required                             8,795
Projection Lower Limit                                                            3,539
Projection Upper Limit                                                           17,485
Dollar Projections
Sample Results – SSI Benefits Paid to Individuals not Redetermined             $49,494
as Required
Projection – SSI Benefits Paid to Individuals not Redetermined as          $87,056,976
Required
Projection Lower Limit                                                     $23,614,154
Projection Upper Limit                                                    $150,499,799
Adjustment to Projection Lower Limit to Reflect 38 Percent Cessation        $8,973,379
Rate for P.L. 104-193 Redeterminations
Note: All projections were calculated at the 90-percent confidence
level.




                                           A-3
                   APPENDIX B



AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “RELIABILITY OF DIAGNOSIS CODES CONTAINED IN THE
SOCIAL SECURITY ADMINISTRATION’S (SSA) DATA BASES” (A-01-99-
61001)


We appreciate the opportunity to comment on this report. Our
comments on the report recommendations are provided below.

Recommendation

Update the Master Beneficiary Record (MBR) or Supplemental
Security Record (SSR) with valid, specific diagnosis (DIG)
codes for all disabled beneficiaries and recipients.

Comment

The cost of updating the 1.5 million MBR and SSR records noted
in the report would be enormous. In addition, the benefit of
such an update would be minimal since SSA relies on the more
accurate disability determination forms (SSA.831, 832, 833)
for DIG codes.

The correction of over 1.5 million records would be a very
labor-intensive task. In many instances, the claims folder
would be needed. The folder searches would be unproductive at
times (some of these folders will be more than 30 years old),
necessitating folder reconstructions. In addition, for
Supplemental Security Income (SSI) cases converted from the
State welfare rolls, State personnel would have to copy
medical evidence and forward it to SSA. After the folder is
retrieved or reconstructed, a manual folder review would be
needed to determine the most appropriate diagnosis. The
folder reviews would have to be conducted by professional
staff trained in medical evaluations.

Therefore, we believe a better approach would be to correct
the DIG codes as these cases come up for subsequent actions
such as a continuing disability review (CDR) or age 18 medical
review. This strategy means that not all cases will be (or
should be) corrected. All non-permanent impairment cases will
be reviewed within a three-year CDR cycle. Permanent
impairment cases would not be detected in any cyclical review,
other than the age 18 redetermination. However, for the
reasons stated, we believe correcting these cases when
subsequent actions are taken is the best way to handle this
situation.



                              B-2
Recommendation

Implement an electronic edit check that requires a valid,
specific DIG code be input when new records are opened on the
MBR and/or SSR for disabled individuals.




                              B-3
Comment

We agree with the intent of this recommendation, but not the
specific solution. Storing only active DIG codes would
significantly reduce the flexibility the Agency needs to
quickly activate a new DIG code. Furthermore, the
implementation of an electronic edit check would require
changes to systems within all of our DDSs. These system
changes would require significant implementation time and
cost.

We believe a more timely and cost-effective method of
improving coding accuracy is to focus on the front end of the
process by ensuring that DDS personnel enter the correct DIG
code to the NDDSS. By April 30, 2000, we plan to issue a DDS
Administrator’s Letter and Regional Commissioner’s Memorandum
providing guidance to DDSs on the importance of entering valid
and specific DIG codes to the NDDSS. In addition, we have
been and will continue to research potential benefits we may
receive from automated coding systems available commercially
"off the shelf."

Upon release of the DDS Administrator's Letter and Regional
Commissioner's Memorandum, we will begin monitoring the degree
to which coding problems continue to arise. If improvements
are not revealed, we will reconsider our approach.

Recommendation

Publish a policy memorandum emphasizing the importance of
having valid, specific DIG codes on the MBR and/or SSR, as
well as the NDDSS. The memorandum should also explain what
special circumstances allow for the use of DIG code 2480.

Comment

We agree. As stated above, we plan to issue a DDS
Administrator’s Letter and Regional Commissioner’s Memorandum
by April 30, 2000 providing additional guidance to DDSs on the
importance of entering valid and specific DIG codes to the
NDDSS.

Recommendation

Periodically monitor whether DDS offices are limiting the use
of DIG code 2480 to those special circumstances where it is
appropriate.



                              B-4
Comment

We do not believe it would be cost effective to conduct
ongoing monitoring of a single DIG code. SSA currently has
several processes in place to monitor these codes overall.
DIG codes are monitored on an ongoing basis as follows:

�	 All allowances with DDS diagnosis code 2480 (Diagnosis
   Established-No Predetermined List Code of Medical Nature
   Applicable) are targeted for preeffectuation review (PER) by
   the Office of Quality Assurance and Performance Assessment
   (OQA). Denials with DDS DIG code 2480 are subject to sample
   selection for quality assurance (QA) review in the same way
   as all other denials.

�	 As part of both PER and QA reviews, OQA records the
   impairment codes used by both the DDSs and OQA reviewers.
   OQA periodically compares the DDS impairment codes and the
   OQA reviewers’ diagnosis codes to see if/where any problems
   occur. In addition, a comparison of the two codes is
   usually part of any deficiency analyses that are undertaken.

�	 Of concern during analysis of impairment code accuracy is
   the presence of any of the nonspecific codes (i.e., 2480;
   0000-None Established; 6490-None Established (Medical
   Evidence in File But Insufficient to Establish Diagnosis),
   particularly in favorable determination cases. Taken into
   consideration with other available information about a
   specific case, use of such a code can raise questions about
   the extent to which an individual’s impairment(s) was
   documented and evaluated.

Also, we are not aware that the use of DIG code 2480 is a
problem for SSA staff as noted in the report. However, to
determine whether a specific problem exists, we will review on
a one-time basis the usage rate of DIG code 2480 for DDS
allowances after the DDS Administrator’s Letter and Regional
Commissioner’s Memorandum are issued.

Recommendation

Ensure that when second or subsequent SSR records are opened,
the DIG code on previous SSR records is carried forward or
another DIG code that represents the individual’s disabling
condition is placed on all newly opened SSR records.

Comment



                              B-5
These systems revisions were implemented when the T30/T33
process was integrated into the Modernized Supplemental
Security Income Claims System (MSSICS) (Release 4.4) in July
1997. The vast majority of these cases are input via MSSICS.
However, the field offices still retain the ability to create
these records manually, and procedures are in place to ensure
that appropriate codes are carried forward or established when
the manual process is used.

Recommendation

For all childhood cases included in the extract, determine
whether Public Law (P.L.) 104-193 medical redeterminations
should have been conducted, and conduct those redeterminations
that have not been performed.

Comment

SSA already has procedures in place to ensure that any case
that should have had a childhood redetermination will be
identified and processed as a childhood redetermination on an
ongoing basis. SSA recognized from the outset of the
childhood redetermination effort that some childhood cases
that met the disability redetermination criteria provisions of
P.L. 104-193 would be excluded inadvertently because of
imprecise coding. Therefore, SSA has instructed adjudicators
at the time a CDR or other disability review is initiated to
first check to see if the case meets the childhood disability
determination requirements. The adjudicator is further
instructed to pursue development and a disability
redetermination decision on any case identified as being
subject to a childhood disability redetermination.

SSA is required to review, at least once every 3 years, all
childhood cases where eligibility is based on an impairment
(or combination of impairments) which is likely to improve.
All cases with unknown DIG codes are classified as
nonpermanent and are subject to this review. Therefore, any
case not captured in the childhood redetermination effort has
already been released for a CDR as we are now in the third
year of the 3-year period. As noted above, a redetermination
rather than a CDR is performed on any case that should have
been included in the redetermination workload but was missed.
OIG notes, in fact, that three of the five study cases cited
as not having a redetermination were medically reviewed prior
to issuance of the draft report.




                              B-6
We do not believe that the OIG review establishes that it is
cost effective or necessary to review all cases in the extract
to determine if a childhood case was excluded from the
redetermination process due to miscoding. We base our
conclusion on:

1. The OIG sample includes cases adjudicated after
   implementation of P.L. l04-93 (indicating the case would
   have already been worked under the new standard);

2. All the potential childhood redetermination cases in the OIG
   sample will be or have been reviewed as part of the CDR
   process and will have or have had a childhood
   redetermination, if a redetermination is or was required;

3. The OIG sample included only 50 cases, with the specifics
   for only one error described in the report. In effect, the
   sample is too small to support the projections made with a
   high degree (95%) of confidence; and

4. Many of the cases in OIG’s extract may have been included in
   the cases screened by the Federal Disability Determination
   Services (FDDS). More than 20,000 childhood records that
   were determined to be Office of Hearing and Appeals (OHA)
   allowances were referred to the FDDS for screening before
   notices were sent out regarding the redeterminations.




                              B-7
                                                                    APPENDIX C



MAJOR CONTRIBUTORS TO THIS REPORT


   Office of the Inspector General

   Roger J. Normand, Director, Disability Program Audit Division

   Rona Rustigian, Deputy Director

   David Mazzola, Senior Auditor

   Walter Bayer, Senior Auditor

   Joseph LoVecchio, Auditor

   Kevin Joyce, Auditor

   Brian Jaspon, Auditor



For additional copies of this report, please contact the Office of the
Inspector General’s Public Affairs Specialist at (410) 966-5998. Refer to
Common Identification Number A-01-99-61001.
                        APPENDIX D



SSA ORGANIZATIONAL CHART

